Attorneys for Petitioner
Brian Halligan Fletcher
Counsel of Record

Stanford Law School
Supreme Court Clinic
559 Nathan Abbott Way
Stanford, CA 94305

650-724-3345

bfletcher@law.stanford.edu
Party name: Arthur Gregory Lange
Attorneys for Respondent
Samuel Thomas Harbourt
Counsel of Record

California Department of Justice
Office of the Solicitor General
455 Golden Gate Ave., Suite 11000
San Francisco, CA 94102

415-510-3919

Samuel.Harbourt@doj.ca.gov
Party name: State of California
Other
Amanda Kelly Rice
Counsel of Record

Jones Day
150 W. Jefferson Ave., Suite 2100
Detroit, MI 48226
arice@jonesday.com

Party name: Court-appointed amicus curiae in support of the judgment below

313-230-7926

